United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

May 04, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-10392

In re: Gary Barnes
USDC No.

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk

By:
Laney L. Lampard, Deputy Clerk
. Mr. Gary Wayne Barnes

20-10392

Mr. Gary Wayne Barnes
#318814
CID Ramsey Prison
1100 FM 655
Rosharon, TX 77583-0000

Case: 20-10392

Document: 00515403404

Page: 1

Date Filed: 05/04/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 20-10392

In re: GARY WAYNE BARNES,
Movant

Motion for an order authorizing
the United States District Court for the
Northern District of Texas to consider
a successive 28 U.S.C. § 2254 application
Before JONES, CLEMENT, and HAYNES, Circuit Judges.
PER CURIAM:
Gary Wayne Barnes, Texas prisoner # 318814, moves for authorization
to file a successive 28 U.S.C. § 2254 application seeking to challenge his 1981
convictions on three counts of aggravated rape and one count of burglary of a
habitation. He contends that he relies on “newly discovered evidence” in the
form of (i) an expert serologist’s testimony and opinions given in a separate
criminal case; (ii) 64 pages of documents concerning, among other things, rape
kit samples and doctor notes from the examination of the victims; and (iii) the
results of a May 2017 DNA test. As to certain of this evidence, Barnes argues
that the State violated Brady v. Maryland, 373 U.S. 83 (1963), and engaged in
prosecutorial misconduct by suppressing such evidence and that his counsel
was ineffective for failing to discover it. Barnes also contends that he is
actually innocent and seeks to raise several other claims that his convictions
are constitutionally infirm.

Case: 20-10392

Document: 00515403404

Page: 2

Date Filed: 05/04/2020

No. 20-10392
To obtain authorization to file a successive § 2254 application, Barnes
must make a prima facie showing that either (1) his claim “relies on a new rule
of constitutional law” that was “made retroactive to cases on collateral review
by the Supreme Court” and was previously unavailable or (2) “the factual
predicate for the claim could not have been discovered previously” through due
diligence, and the underlying facts, if proven, “would be sufficient to establish
by clear and convincing evidence that, but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the underlying
offense.” 28 U.S.C. § 2244(b)(2), (b)(3)(C). Barnes has failed to make the
requisite showing.
Barnes also argues that he is actually innocent. To the extent, that
he raises a stand-alone actual innocence claim, this court “does not
recognize freestanding claims of actual innocence on federal habeas review.
In re Swearingen, 556 F.3d 344, 348 (5th Cir. 2009). Insofar as Barnes argues
“actual innocence” as a gateway claim to raise his successive claims, he has not
presented new evidence showing that it is more likely than not that no
reasonable juror would have found him guilty of the charged offenses. See
Schlup v. Delo, 513 U.S. 298, 327-29 (1995); see also McQuiggin v. Perkins, 569
U.S. 383, 386 (2013).
Accordingly, IT IS ORDERED that Barnes’s motion for authorization to
file a successive § 2254 application is DENIED.

2

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

April 16, 2020
#318814
Mr. Gary Wayne Barnes
CID Ramsey Prison
1100 FM 655
Rosharon, TX 77583-0000
No. 20-10392

In re: Gary Barnes

Dear Mr. Barnes,
p

;

We received and take no action on your IFP application as it is
■ unnecessary in this type of case.
Your motion'for'authorization with attached exhibits has been filed
You will be notified once the Court
and submitted to the Court.
issues its decision.

Sincerely, ■
LYLE W. CAYCE, Clerk

}i-

~

By:
____________,________________
Claudia N. Farrington,Deputy Clerk
504-310-7706

AO 242 (12/11) Petition for a Writ ofHabeas Corpus Under 28 U.S.C. § 2241

PETITION FOR A WRIT OF HABEAS CORPUS UNDER 28 U.S.C. § 2241
Instructions
1.

Who Should Use This Form. You should use this form if
•
you are a federal prisoner and you wish to challenge the way your sentence is being carried out (for
example, you claim that the Bureau ofPrisons miscalculated your sentence or failed to properly award
good time credits)',
•
you are in federal or state custody because of something other than a judgment of conviction (for
example, you are in pretrial, detention or are awaiting extradition)', or
•
you are alleging that you are illegally detained in immigration custody.

2.

Who Should Not Use This Form. You should not use this form if
•
you are challenging the validity of a federal judgment of conviction and sentence (these challenges are
generally raised in a motion under 28 U.S.C. § 2255)',
•
you are challenging the validity of a state judgment of conviction and sentence (these challenges are
generally raised in a petition under 28 U.S.C. § 2254)\ or
•
you are challenging a final order ofRemoval in an immigration case (these challenges are generally
raised in a petition for review directly with a United States Court ofAppeals).

3;

Preparing the Petition. The petition must be typed or neatly written, and you must sign and date it under .......
penalty of perjury. A false statement may lead to prosecution.
All questions must be answered clearly and concisely in the space on the form. If needed, you may attach
additional pages or file a memorandum in support of the petition. If you attach additional pages, number the
pages and identify which section of the petition is being continued. Note that some courts have page limitations.
All filings must be submitted on paper sized 8'A by 11 inches. Do not use the back of any page.

4.

Supporting Docum ents. In addition to your petition, you must send to the court a copy of the decisions you are
challenging and a copy of any briefs or administrative remedy forms filed in your case.

5.

Required Filing Fee. You must include the $5 filing fee required by 28 U.S.C. § 1914(a). If you are unable to
pay the filing fee, you must ask the court for permission to proceed in forma pauperis - that is, as a person who
cannot pay the filing fee - by submitting the documents that the court requires.

6.

copies to the clerk of the United States
Subm itting Docum ents to the Court. Mail your petition and
District Court for the district and division in which you are confined. For a list of districts and divisions, see 28
U.S.C. §§ 81-131. All copies must be identical to the original. Copies may be legibly handwritten.
If you want a file-stamped copy of the petition, you must enclose an additional copy of the petition and ask the
court to file-stamp it and return it to you.

7.

Change of Address. You must immediately notify the court in writing of any change of address. If you do not,
the court may dismiss your case.

Page 1 of 10

r
1

IN THEJSUPBS3E eg>yM
UNITED

STATES

AO 242 (12/11) Petition for a Writ of Habeas Corpus Under 28 U.S.C. § 2241

United States District Court
for the

IN RE:

Gary Wayne Barnes Sr.

Petitioner
V.

Director, Lori Davis------------ ----------------

Respondent
.. (name ofwardenorauthorized, person having custody of petitioner).

)
)
)
)
)
)
)
)
)
)

Case No.
(Supplied by Clerk of Court)

PETITION FOR A WRIT OF HABEAS CORPUS UNDER 28 U.S.C. § 2241
Personal Information
(a) Your full name:

Gary Wayne Barnes Sr,
(b) Othemames you have used:
none

2.

Place of confinement:
(a) Name of institution:

Texas Department of Criminal Justice/ Institutional Div.
-Ramesy—Unit------------------------------------------ -----------------------

(b) Address:

lion m. css

Rosharon, Texas 77583
(c) Your identification number:
#318614Are you currently.being held on orders by:
□ Federal authorities
4.

£1 State authorities

□ Other - explain:

Are you currently:
□ A pretrial detainee (waiting for trial on criminal charges)
-—§3 Serving a.sentence„(incarceration,.parole,..probation,.etc.).after„hav.ing.been„conyictedTof.a crime___ _
If you are currently serving a sentence, provide:
(a) Name and location of court that se ntenced you:

Dallas

Criminal District

Court Three

Countv Texas.

(b) Docket number of criminal case:
(c) Date of sentencing:

■F-81-01027/ F-81-02518
-gebuary 21, 1981, and Feb 25/ 1981

□ Being held on an immigration charge
□ Other (explain)'.

no not applicable

Criminal

convictions whwre the state used extraneous offenses
without giveing the offenses report numbers of the evidence collection
numbers as applied to each of the victims;
no evidence supports the convictions;
Page 2 of 10

r

AO 242 (12/11) Petition for a Writ of Habeas Corpus Under 28 U.S.C. §2241

Decision or Action You Are Challenging
What are you challenging in this petition Actual Innocence
□ How your sentence is being carried out, calculated, or credited by prison or parole authorities (for example,

5,

revocation or calculation of good time credits)
□ Pretrial detention
□ Immigration detention
□ Detainer
□ The validity of your conviction or sentence as imposed (for example, sentence beyond the statutory
maximum or improperly calculated under the sentencing guidelines)
□ Disciplinary proceedings
□ Other (explain):

actual—Innocence the DNA—evidence 'excu-ldes the petitioner and the vicHm did not mpkp an idpnti ficnl-ion of thp—petitioner and----ther is a reasonable doubt >--------------------------- —----------- ;—
Provide more information about the decision or action you are challenging:

6.

(a) Name and location of the agency or court:

Texas

Court—ef—Criminal—Appeals—ef-

Texas—at—Austin—,—denied without a written order—without consideration of(b) Docket number, case number, or opinion number:
12, 650 22 23 24 and 25
(' (c) Decision or action you are challenging (for disciplinary proceedings, specify the penalties imposed):

Wr-it—©f—Habeas—Corpus 11,-07 Actual—Tnnocenee-.—Tnoffoctivc ar.r.-i ntanm------of counsel/ Brady violation in the withholding of the evidence/_pros ecu 11ora3
i•
misconductin the intentionally withholding the evidence / Due process violations
(d) Date of the decision or action: -March- 5*—2020-^
filed—in the
denial—card
Fifth circuit with

writ attached; in a request to file 2254;
Your Earlier Challenges of the Decision or Action

First appeal

7.

Did you appeal the decision, file a grievance, or seek an administrative remedy?

□ No

B Yes
(a) If “Yes’,'’’provide:

~

(1) Name of the authority, agency, or court:
a

friminal

"npwl y di srnvprpd
Writ of Habeas Corpus
(2) Date of filing: January -4-,—2018---------:-------

(3) Docket number, case number, or opinion number:
(4) Result: Evidentiary Hearing
(5) Date of result:

ni.qtrirt
pvidpncp

murt

Thrpp in

;

F-01-0102Y7
F-01-011Q5t
F-81-02518 & F-80-16530

April 18, 2018_______________________________________ ... .—

(6) Issues raised. ineffective assistance/ Brady Miolatioas—due process
violatioons/ prosecutorial misconduct / Actual Innocence and
no eviidence to support
the convictions as the state withheld
the

pvidpncp,

but

nevered

thp

prn.qpcnt i nn ppnVp nnt.qidp rvF thp rprords nf thp

offered,

pvidsnca

admitted of presented the evidence, and never ask the

victim to identify the petitioner;

Page 3 of 10

J

r

k.

AO 242 (12/11) Petition fora Writ of Habeas Corpus Under 28 U.S.C. § 2241

The prosecution withheld the evidence of finger prints and did
not admit the evidence on the recodrs/ but made statements that the evidence
connected

the*

petitioner

to

t-hp

offenses/, but—did not—admitt the proof4-

(b) If you answered “No,” explain why you did not appeal: __________________________________

The
8.

petitioner

had

the

same

theappeal/ attorney did not raise
Second appeal
none

attorney at
any reversal

'

tria]__ and the same for the
prrnrs

After the first appeal, did you file a second appeal to a higher authority, agency, or court?
BNo

□ Yes
(a) If “Yes,” provide:

(1) Name of the authority, agency, or court:
of- Dallas

Fifth Judicial District

600

On

direct appeal

the attorney filed

Commerce -Street- . Ruite 900 Dal las,Tx

(2) Date of filing: March 31 1981_______■
(3) Docket number, case number, or opinion number:
(4) Result:

Affirmed convictions-;

OS- 91 - &
August 31 1982.
Fundemental defective charge to the jury's on the
(6) Issues raised:
used , or exhibited in the commission of
of aq deadly weapon being
(5) Date of result:

use

the charged offenses._____________________ _____________________:________________ Ineffective
assistance
of attorney
did not raise an of the issues to
which
he objected to at the trail stage, and did not makp an nhjprt-inn
, or raise the__issues that the—evidence was—withheld not admitted or offered----£or a consideration of the jury's mn.qideration f in t~hp pviripnrp prnupR,_Innocences
(b) If you answered “No,” explain why you did not file a second appeal:

The__pet-i 1-i nnpr__ filed a motion for DMA—testing / and the results-----newly di sroverpd TViriimpnls__shows that the
excludes the petitioner, and
state was in the knowledge of this evidence prior to the trial
Third appeal
9.
and withheld this , informations and documents;
tri
After the second appeal, did you file a third appeaRo a higher authority, agency, or court./
□ No

SI Yes
(a) If “Yes,” provide:
the

on June 6, 2019 the petitioner discovered newly
discovered evidence in the office of the Dallas County

(1) Name of the authority, agency, or court: District Attorney office
and fi1pd
evidence in the office of the Dallas County Clerks office as newly

discov^g^jgyjgfHigg. filed

on August 9, 2019 and requested

that the convict
(3) Docket number, case number, or opinion number: be vacated; qqA. No 12, 658, 22
(4) Result: 23 24 & 25. Denied without a written order;
(5) Date of result:

October 18, 2019 and March 5, 2020

(6) Issues raised: ictual Innocence support by DNA results DPS 11Duas not- ava i 1 abl e at the date of the trials and the jury
which
184098,
did not malfP it-.s consideration and determination on this evidence, as the
cut come of the trial would have been different based of the testing.
Page 4 of 10

r-

AO 242 (12/11) Petition for a Writ of Habeas Corpus Under 28 U.S.C. § 2241

The
petitioner
presents newly discovered evidence that was not persented
at the dates of the petitioners trials, of DNA evidence that was not availible at
the
trials for the jury's consideration, and the fact '.that the victim
did not identify the petitioner, in light of the misstatements of the prosecution.
that the evidence—connected—the petitioner—to the charged offenses-.----------- ----(b) If you answered “No,” explain why you did not file a third appeal:

_____ ______________________

petitioner
gave testimony in a evidence hearing
Jlily—24u— 2019 the
didscovered
evidence of June 6, 2019 was mailed to the
that the newly

On.
10.

Motion under 28 U.S.C. § 2255 Dallas county clerk containing 64 pages of documents;
In this petition, are you challenging the validity of your conviction or sentence as imposed?

□ No

0 Yes

If “Yes,” answer the following:
(aj------Have youalready filed a motion under 28 U:S.G-.-§-2255 that challenged this conviction or sentence?

□ Yes

3&No

If “Yes,” provide:
(1) Name of court:
(2) Case number:
(3) Date of filing:
(4) Result:
(5) Date of result:
(6) Issues raised:

Have you ever filed a motion in a United States Court of Appeals under 28 U.S.C. § 2244(b)(3)(A),
seeking permission to file a second or successive Section 2255 motion to challenge this conviction or

(b)

sentence?
*0 Yes

□ No

If “Yes,” provide:
(1) Name of court:
(2) Case number:
(3) Date of filing:
(4) Result:
(5) Date of result:
(6) Issues raised:

material

violations,

Fifth

Cirucit

see attached results
courts of Appeals

20-10392
4/4/20
application was denied

5/4/20
Inneffective
assistance, Brady
Actual
innocence,
Due Process violations, Preoecutioral misconduct , in

the intentional withholding of the 64 pages of
that

with a review of records

forensic labobatory doucments

excluded the petitioner prior to trial , which was withheld.
Page 5 of 10

AO 242 (12/11) Petition for a Writ of Habeas Corpus Under 28 U.S.C. § 2241

nn t~hp rpmrds that
thp prn.qpr’nt'i nn
At fhe—dates—of. t-hp 1-r-ial.q
is at the crime lab being tested that connected the petitioner
the evidence
This evidence was not delivered to the court
to the charged offenses.
was not admitted, or offered; /( only now newly discovered sealed evidence)
(c)

Explain why the remedy under 28 U.S.C. § 2255 is inadequate or ineffective to challenge your
conviction or sentence:

Petitioner filed__ request—for---- second/—secussive
petition—based ltpnp t-hp__n^yiy__discovered evidence, citing Brady Material
violations, as the evidence was not persented or admitted. This evidence
shows that the petitioner was excluded prior to the trial < in a laboratory
specimen!—samples--- taken from thp u-irHm.q__that the person that committed
the petitionall three of the offenses was of a blood type of "(A)"/ and
typing -is- "0" -positive... -These, documentswould have, affected, the juror's
ers
verdicts and the reason it was withheld.___________________________________
11.

Appeals of immigration proceedings
Does this case concern immigration proceedings?
*SNo

□ Yes

If “Yes,” provide:
(a)

Date you were taken into immigration custody: ____________

(b)

Date of the removal,. or reinstatement order:

(c)

Did you file an appeal with the Board of Immigration Appeals?
□ Yes

_____________

□ No

If “Yes,” provide:

n/a

(1) Date of filing:

n/a

(2) Case number:
(3) Result:
(4) Date of result:
(5) Issues raised:

(d)

n/a

Did you appeal the decision to the United States Court of Appeals?
>0 Yes

□ No

If “Yes,” provide:
(1) Name of court:
(2) Date of filing:
(3) Case number:

SUPREME COURT---------------—Aug, 4 / 2020--------------USCA 5 NO. 20-10392
Rejected without reading
application;

cover page 2241/2242
Page 6 of 10

AO 242 (12/11) Petition for a Writ of Habeas Corpus Under 28 U.S.C. § 2241

(4) Result:

NOTICE TO

(5) Date of result:

CHANGE THE HF.ADTNG AND RF.FTT.F.

Aug 4, 2020

(6) Issues raised:

Actual Innocence; no evidence to support a conviction
and the victim has
never made a positive identification of

The petitioner was sentenced__to a term of—life/ and has.
the petitioner.
served 40 years on a crime that is unsupported hy__evidence as no evidence
rnnsi der-at- 1 nn
was offered/ presented or admitted for the jury
Had-----thisevidence newly dismvprp_d—evidence

been—presented the.cotcome of the triaT

would be different;—-------------------------------------------—-----------------------------------------------12.
Other appeals
Other than the appeals you listed above, have you filed any other petition, application, or motion about the issues
raised in this petition? -Texas - court of criminal Austin/ Texas
□ No
Q&'es
11.07 Writ of Habeas Corpus
If “Yes,” provide:
(a) Kind of petition, motion, or application:
(b) Name of the authority, agency, or court:

n ^7

writ of—Habeas—corpus----Texas court- of—Criminal appeals. Austin./.

Texas—12308 Austin Texas 78 208
; : (c) Date ofiiling:
Feb 4, 2018------ --------------(d) Docket number, case number, or opinion number:
(e) Result:

12/ 658. 2.7. ■ 73, 2.4,

________

Reminded__back to the trial—court for—hearings / denied

(f) Date of result:
(g) Issues raised:

viol at inn

in

Oct, 18/ 2QP9----------------------------------------- --------------------Aetna!

innncenrp,

ineffective assistance—,

Brady

material

the withholding of the__evidence/ prosecutioral misconduct

in the—making—statements—ef—the evidence which is outside of the—recordsthat has never been offered admitted or presented fnr the jnrys consideration.
in that the newly testing of the evidence does not connect the petitioner
to any of the charged offenses
_

ha

/which—the—prosecution—stated that the

Testing results of May 17/
Petitioner„wa& connected to the offenses.
filed
in
t-he
state
court
nn
.inly
?Q,2019
has—Excluded petitioner-------2017jl
in the DPS file hnumber LlD-184098. Texas department of Public Safety.
Grounds for Your Challenge in This Petition
13.

State every ground (reason) that supports your claim that you are being held in violation of the Constitution,
laws, or treaties of the United States. Attach additional pages if you have more than four grounds. State the
facts supporting each ground.

Actual

Innocence/ in the case of F-81-01105 the
the victim did not identify the petitioner;

no evidence,
state persented
GROUND ONE: _______
The victim was

never asked to irnke an identification of
the petitioner, and the state clamied that the evidence was being tested
never produced
at the southwest institute of froensic science lab , it was
the

seroligist testing the evidence was not produced , and no evidence

documents

was

admitted;

numbers of offense report

, to support any of the convictions by collection
numbers for any of the evidence.

Page 7 of 10

AO 242 (12/11) Petition fora Writ of Habeas Corpus Under 28 U.S.C. § 2241

(a) Supporting facts (Be brief. Do not cite cases or law.)'.

Petitioner was placed on trial for three offenses of July 4, 1980 by indictm­
ent charging three different offenses which required proof of different facts
different essential elements and different supporting evidence for each offense
as charged to the

jury

instruction

of

a

reasonable

doubt

in premittinq

spoke* of t-ho pvidpncp , hut did not—give
convictions.
prosecution
The
the offense report numbers, the evidence collection numbersas it applied
to ®^idy%fUp^nV&m<f6n?fnaly^p%na?seth?fweS«afl»foufan not suPP°rt ali evictions.

□ Yes

BcNo

evidence was sealed; only now is it newly discovered!

failed
to
GROUND TWO: Ineffective assistance of counsel, the attorney
victims prior to the trials, as in has Questioning
interview any of the
of each of the victims hsi asks we have never met?, each replied no. The attorney failed to review the evidence of each of the cases, failed to demand_____
Addmitted in the records.
the(a) ^u$§ftfneg Ms°(Uffief%o mmSm
trials, in the evidence collection
No evidence was admitted at the
or in the police report numbers, in the rape sample kits from-eacfr
numbers,
viand thprp

wag no ■nhjor'b-irvnq1

mho----attorney—did—net—call for the

seroligits that was
testing the evidence and none of the testing reports
was offored, presented or admitted into evidence, showing that the petitioner
was connected to the offenses. Had the attorney known that the victim in
offense number F-81-01105 could not and did not identifypetitioner was
a reason for severance, as petitioner is convicted no the testimony of the
oth" fb1) Sifyoupresent Ground Two in all appeals that were available to you?

□ Yes

xflNo

The DNA testing was not granted , avaiable until
2013 for convictions in Texas.

GROUND THREE:
Prosecutioral misconduct, the evidence was infpntinnally.
withheld / as the prosecution states that the evidence was being tested

but this
that connected the petitioner to the to
the charged offenses
documents report­
evidence was never offered presented or admitted. The
ing (a) ^pp^WfilffMs ,W§n'e/wA^W?SMA5eP94nv^dmi tted in each of the victime names.
In the records of two trials the* pvidpncp was withheld,—none of the
evidence is offered, presented or was t-hp pvidpnrp admit-fpb,—into evidence.has a different cause number, eeach of the casps has
Each of the cases
number and evidence collection numbers for each
a different police report
of the named victim. The
TR, supports the
facts that the evidence was
intentionally withheld,

as

the

supporting evidence, for the jury

petitioner

is

convicted

, without

the

consideration, and no objections is made;

(b) Did you present Ground Three in all appeals that were available to you?

□ Yes

)gN0 Due to the nature of the offenses the trial
recdords
was sealed,
and only now is this in­
formation available to the pro-se petitioner;
Page 8 of 10

AO 242 (12/11) Petition for a Writ of Habeas Corpus Under 28 U.S.C. § 2241

GROUND FOUR:
Due Process violations as the petitioner was dpprivpd Hip
right to a fair trial as the evidence was withheld intentionally .The_______
prosecution misrepresents the physical evidence, in the withholding of the
crime

scence

the
petitioner as the person that
was violated in the Prosecutions
knowingly use of the false statement that the evidence being tested at
the crime lab connects the petitioner to the charged offenses, with-out any
that
sup pporting evidenece the misconduct: was sifficientj.y egregious.
violated

evidence

petitioners

thaj~ excludes

Process rights . in that the petitioners trial
the
that
counsel was ineffective for not objecting to the conduct and
state court did not reasonably apply the relevant law m finding other
v/lse-T/he misrepresenting facts-ie/ the. evidence__.a.Timcunt _ ^p substantial errors,,
(b) Did you present Ground Four in all appeals that were available to you? impressed the jury's.
iGtNo
the same trial attorney was appointed for the
□ Yes
14.

line

appeals in teach of the cases.
If there are any grounds that you did not present in all appeals that were available to you, explain why you did
not: The petitioner was not allowed to filg a cKippemant-al appeal---------due to the fact that the same attorney at the two trials was the same
attorney on appeals, (hybird repsentation) ) the court cited-;-----------------

Request for Relief
15. State exactly what you want the court to do:
nHonal 1

The

conviction in F-ftl—Oil OR i s nnCOftstat—

im—firmes,----not—supported—by evidence, or by the—identification

of—the—victim—and—is—a—void conviction , that has—the effect to reverse
alt of the convictions__as__the___ jury-virdict is gmeral—as the cases wao
rrided__ togather,—and—the—state
.___ _..instructions, of . the evidence_in jaffense report numbersor evidence collect ___
numbers as the evidence
has a collection number for each of the victims
samples

and

the

jury

case in cause number.

is

left to guess which

evidence

pretains to which

Order a new trial;

Page 9 of 10

^ *

EXHIBIT
COURT OF APPEALS
FIFTH SUPREME JUDICIAL DISTRICT OF TEXAS
AT DALLAS

i
£

A

NOS. 05-81-00640-CR
05-81-00642-CR
GARY WAYNE BARNES, SR.,

FROM A DISTRICT COURT

APPELLANT
VS.
THE STATE OF TEXAS,
APPELLEE.

OF DALLAS COUNTY, TEXAS

BEFORE CHIEF JUSTICE GUITTARD AND JUSTICES SPARLING AND VANCE
OPINION BY JUSTICE VANCE
AUGUST 31, 1982
y
\

'Appeal is from two1 convictions for aggravated rape, jury
f

Three cases were consolidated in a single proceeding, Since
the same grounds of error were not urged in the third case
it has been addressed in a separate opinion.

assessed punishment in each case at confinement for life and imposi­
tion of a $10,000 fine.

Appellant's grounds of error are overruled

for the reasons stated.
FIRST GROUND:

COURT'S CHARGE

Appellant contends, in both cases, that the charge was funda­
mentally erroneous in that it allowed conviction under a theory not
2
supported by the evidence. The indictment had alleged that the

2

The indictment in No. 05-81-00642-CR, in pertinent part,
alleges that appellant did:

-1-

[Ijntentionally and knowingly have sexual intercourse
with E____ R____ , hereinafter styled Complainant, a
female not his wife, without the consent of the
Complainant, in th^t the Defendant threatened the
Complainant, and the Defendant did intentionally
and knowingly compel the Complainant to submit
to the said act of suxual (sic) intercourse by
threatening serious bodily injury and death to
be imminently inflicted on the Complainant, by
threatening her with a.deadly weapon, to-wit: a
firearm ....
(Emphasis supplied).
The indictment in No. 05-81-00640-CR, in pertinent part, alleges
that appellant did:
[I]ntentionally and knowingly have sexual''intercourse
with Y__________
0
, hereinafter styled Complainant, a
female not his wife, without the consent of the
Complainant, in that the Defendant threatened the
Complainant, and the defendant did intentionally
and knowingly compel the Complainant to submit to
the said act of sexual intercourse^by threatening
serious bodily injury and death to be imminently
inflicted on the Complainant, by threatening her
with a deadly weapon, to-wit: at firearm, ....
(Emphasis supplied).

aggravated rape had been committed "by threatening serious bodily
injury"^ and death."

3

In the abstract statement of the law, the

The charge gave the following definition:
"Serious bodily injury" means bodily injury
that creates a substantial risk of death or that
causes death, serious permanent disfigurement or
protracted loss or impairment of the function of
any bodily member or organ.

court does not include threat of death as an aggravating element.^

4

The charge provided:
A person commits the offense of aggravated
rape if he intentionally or knowingly commits the
-2-

V

offense of rape as hereinbefore defined, and he
intentionally or knowingly compels submission to
the rape by threat of serious bodily injury to be
imminently inflicted on anyone.

Appellant contends that since the court did not include threat of
death in the abstract statement of law that the court did not
believe that a death threat had been made and was not supported by
the evidence.

When the charge is viewed as a whole, failure to

include threat of death in the definitional part of the charge
appears to be an inadvertent omission as opposed to a finding by
the trial court that it was not supported by the evidence. The
5
application paragraph of the charge did contain both aggravating
y
5

'
The application of the law to the fafcts in No. 05-81-00640-CR,
is as follows:
Therefore, if you believe from the evidence
beyond a reasonable doubt that the defendant, Gary
Wayne Barnes, Sr. in Dallas County, Texas on or about
the 4th day of July , 1980, did intentionally or
knowingly have sexual intercourse with Y
0
a female not his wife, without the consent of said
Y
O
, in that the Defendant threatened the
said Y
0
, and the defendant did intentionally
or knowingly compel the said Y
0
, to submit
to the said act of sexual intercourse by threatening
serious bodily injury or death to be imminently
inflicted on the said Y____ O____ , by threatening
her with a deadly weapon, to-wit: a firearm, you
will find the defendant guilty as charged in the
indictment.
(Emphasis supplied).
The application of the law to the facts in No. 05-81-00642-CR,
is as follows:
Therefore, if you believe from the evidence beyond
a reasonable doubt that the defendant, Gary Wayne
Barnes, Sr., in Dallas County, Texas, on or about
the 4th day of July, 1980, did intentionally or
knowingly have sexual intercourse with E
R
-3-

a female not his wife, without the consent of the
, in that the Defendant threatened
said E____ R
the said E
R ____ , and the Defendant did
intentionally or knowingly compel the said E____
to submit to the said act of sexual inter­
R
course by threatening serious bodily injury or death
R
to be imminently inflicted on the said E
by threatening her with a deadly weapon, to-wit:
a firearm, you will find the defendant guilty
as charged in the indictment.
(Emphasis supplied).

elements of serious bodily injury and death,

The record reflects

that appellant made no objection to the charge at'trial; therefore,
only fundamental error in the charge may be considered on appeal.
Henderson v. State, 617 S.W.2d 697, 698 (Tex. Crim. App. 1981).
The Court of Criminal Appeals in Cumbie v. State, 578 S.W.2d 732
(Tex. Crim. App. 1979) detailed the instances when fundamental
f

error occurs in the court's charge as follows:
’•!$’•

1 •)

An omission from the court's charge of an
allegation in the indictment which is required
to be proved ....
ie

*

★

2.)

[W]hen the charge . . . substitutes a theory
of the offense completely different from the
theory alleged in the indictment.

3.)

[W]hen the charge . . . authorizes conviction
on the theory alleged in the indictment and on
one or more other theories not alleged in the
indictment.

4.)

[W]hen the charge authorizes conviction for
conduct which is not an offense, as well as
for conduct which is an offense.

* * *

578 S.W.2d at 733-735.
In determining whether fundamental error is present, we must view
the charge as a whole.

White v. State, 610 S.W.2d 504, 507 (Tex.

Crim. App. 1981)(En Banc).

The application paragraph of the charge

contains all the elements set out in the indictment; and provides
-4-

for conviction on only those theories set out in the indictment.
We find no fundamental error, therefore, nothing is presented for
review.

Cumbie, supra.

Ground of error one is overruled.

SECOND GROUND:

JURY ARGUMENT

Appellant urges that the prosecutor in argument attacked the
appellant through the actions of counsel when he commented
. . just because someone stands up here in a nice soft mandy
g
pandy demeanor to you . .
. "
This complained of argument occurrdd

^The complete argument the prosecutor had made prior to
the objection is as follows:
May it please the Court. Ladies and gentlemen.
In Mr. Byck's argument to you at the close of the
testimony of guilt or innocence phase, he accused
me in no uncertain terms of making an appeal to your
emotions and I hope that I haven’t done that. I
don't like for people to sit here and blatantly
appeal to mine. It is an insul-t to my intelligence
and makes me mad and I didn't intend to do it to you
either if I did, I am sorry. But emotions are a part
and parcel of individual human beings, the facts of
this case are not coldly logical and rational and you
are under an oath, under a duty to base your verdict
upon the facts of the case. I didn't create the facts
of this case, he did and just because someone stands
up here and says something in a nice, soft, mandy,
pandy, demeanor, to you —
(Emphasis supplied).

during the State's opening argument on punishment,

The argument does

not reflect who the prosecutor was referring to when he said "just
because someone stands up here and says something in a nice, soft,
mandy, pandy, demeanor, to you," nor does it reflect as to whether
he was referring to something that had occurred or something that
might occur in the future.

Before a jury argument will constitute
-5-

reversible error, it must be either extreme or manifestly improper
or inject new and harmful facts into the record.
604 S.W.2d 164, 169 (Tex. Crim. App. 1980).

DeBolt v. State,

The argument complained

of does not meet the test set out in DeBolt, supra; consequently,
it cannot be regarded as reversible error.

Furthermore, the

complained of argument does not strike at the appellant over the
shoulders of counsel.
(Tex. Crim. App. 1980) .

See Todd v. State, 598 S.W.2d 286, 296-297
Ground of error two is overruled.

In addition to the appellant's attorney filing'a brief in
each case, the appellant has filed a pro se brief.

There is no

An examination of the contentions

right to hybrid representation,

asserted in the pro se brief reveals no error that should be con­
sidered in the interest of justice.

Rudd v. State, 616 S.W.2d
»

623, 625 (Tex. Crim. App. 1981).
Affirmed.

JJOHN VANCE
JUSTICE
D.N.P.
RULE 207

-6-

F81-01027-J
. F81-01105-J
THE STATE OF TEXAS
vs.
GARY WAYNE BARNES SR.

§
§
§
§
§

IN THE CRIMINAL
DISTRICT COURT NO. 3 OF
DALLAS COUNTY, TE^S
23*

cr:
to

STATE'S RESPONSE TO BARNES’S MOTION
FOR POST-CONVICTION DNA TESTING
TO THE HONORABLE COURT:

3
cl c/>
-c

THE STATE OF TEXAS, by and through the Criminal District Attorney of
Dallas County, files this response to the motion for post-conviction DNA testing
filed by Gary Wayne Barnes Sr. under Chapter 64 of the Texas Code of Criminal
Procedure.
I. Summary of State’s Position
These cases appear to qualify for additional post-conviction DNA testing
under Chapter 64. Barnes was convicted of sexually assaulting two teenage girls at
gunpoint after breaking into the home where they slept. The victims did not know
Barnes before the attacks. A palm print identified as belonging to Barnes was
recovered from the window through which the perpetrator entered the home. Barnes
presented an alibi defense at trial.
DNA testing conducted in 2009 using STR analysis revealed that Barnes could
not be excluded as a contributor to partial DNA profiles obtained from three vaginal
smears collected from one of the victims. No male DNA was obtained from the

10

- i

r

The State’s response shall be filed with this Court no later than the 13th day of
August, 2015.
Signed this___ day of

,2015.
Judge Gracie Lewis
Criminal District Court No. 3
Dallas County, Texas

.i

2

9

vaginal smear collected from the other victim. Although the smears themselves were
depleted during the analysis, the DNA extracts have been preserved and may be
amenable to further DNA testing using Y-chromosome STR (Y-STR) analysis,
which is capable of providing results that are more accurate and probative than the
results of the previous test.
Accordingly, the State does not oppose Y-STR testing of the remaining DNA
extracts from the four previously tested vaginal-smear slides. The State also does not
oppose Y-STR testing, for comparison purposes, of the remaining DNA extracts
from Barnes’s buccal-swab standards.
II. Procedural Summary
Barnes was charged in two separate indictments with the aggravated rape of
Y.O. (cause number F81-01027-J) and the aggravated rape of E.R. (cause number
F81-01105-J). (C.R. 1: 3; C.R. 2: 3).1 The cases were consolidated for trial, and on
February 25, 1981, a jury found Barnes guilty of both offenses and assessed
punishment at life imprisonment and a $10,000 fine in each case.2 (C.R. 1: 18, 21-22;
C.R. 2: 18, 21-22; R.R.: 189-90, 222-23). On August 31, 1982, the Dallas Court of
Appeals affirmed Barnes’s convictions in am unpublished opinion. (Exhibit A).

1 All citations are to the clerk’s records (“C.R.”) and reporter’s record (R.R.) prepared in connection
with Barnes’s direct appeals in cause numbers 05-81-00640-CR and 05-81-00642-CR. “C.R. 1” refers
to the clerk’s record in cause number F81-01027-J, and “C.R. 2” refers to the clerk’s record in cause
number F81 -01105-J.
2 The same jury also convicted Barnes of a related offense of burglary of a habitation. (R.R.: 189).
Barnes received a sentence of life imprisonment and a $10,000 fine for that conviction, as well.
(R.R.: 222).
2

11

1
On October 25, 2007, Barnes, through appointed counsel, filed a motion for
post-conviction DNA testing under Chapter 64 of the Texas Code of Criminal
Procedure. The State responded to Barnes’s motion and agreed that he had met the
statutory requirements for entitlement to DNA testing. Accordingly, on February 19,
2009, this Court granted Barnes’s motion. The DNA test results issued on May 13,
2009, showed that Barnes could not be excluded as the source of male DNA
recovered from one of the victims. (Exhibit B). After a hearing on June 8, 2009, this
Court entered findings that, had these results been available during the trial of these
offenses, it was not reasonably probable that Barnes would not have been convicted.
See Tex. Code Crim. Proc. Ann. art. 64.04 (West Supp. 2014). For reasons that are
not entirely clear, this Court entered written article 64.04 findings in these cases on
June 8, 2009; August 11, 2009; and December 11, 2014. Each successive set of
findings merely reiterated the findings entered previously. Barnes is currently
attempting to appeal the article 64.04 findings entered on December 11, 2014.
On April 4, 2014, Barnes filed a subsequent, pro se motion for post-conviction
DNA testing in these cases.3 In an order signed March 26, 2015, this Court directed
the State to respond to Barnes’s motion, in accordance with article 64.02 of the
Texas Code of Criminal Procedure, by May 15, 2015. The State subsequently
requested that the time for filing its response be extended to August 13, 2015.

3 Barnes’s motion also requests post-conviction DNA testing of evidence related to his conviction in
cause number F80-16530-J for a third aggravated rape. The State has filed a separate response
addressing Barnes’s request in that case.

3

12

III. Factual Summary
On July 3, 1980, 14-year-old Y.O. and her cousin, 15-year-old E.R., came to
Dallas from Baytown, Texas, to visit E.R.’s father, Joe. (R.R.: 15-16). After the girls
arrived in Dallas, Joe dropped them off at a movie; after the movie, the girls returned
to Joe’s apartment, where they ate dessert and stayed up talking. (R.R.: 17).
Everyone went to bed at about 1:30 a.m. (R.R.: 18).
In the early-morning hours of July 4, Y.O., who was sleeping in an upstairs
bedroom with E.R., woke up and saw a man with a gun standing in the room. (R.R.:
18, 37). The man instructed the girls to get up, grabbed E.R. by her hair, and forced
the girls to accompany him downstairs. (R.R.: 37-38). The man took the girls to the
kitchen, where he pointed the gun at them and ordered them to undress. (R.R.: 3940). The girls complied. (R.R.: 40). The man then issued some command to E.R.,
which she refused, and he struck her on the forehead with the gun, causing her to
bleed. (R.R.: 40-41). The man told the girls that he would kill them if they made any
noise. (R.R.: 41). He also said that he would kill anyone who came downstairs.
(R.R.: 41-42).
The man ordered Y.O. to follow him into the dining room. (R.R.: 42). There,
he told her to kneel with her back facing the wall. (R.R.: 43). The man took his
shorts off, forced his penis into Y.O.’s mouth, and told her to “suck it.” (R.R.: 4445). He then retrieved E.R. from the kitchen and brought her into the dining room,
as well. (R.R.: 45). He ordered both girls to lie on the floor and spread their legs
because he was “going to rape [them].” (R.R.: 45). Next, the man sent both girls into
4

13

the kitchen to find some cooking oil. (R.R.: 45-46). When they were unable to find
any, the man went into the kitchen himself, found the oil, and poured it over the
girls. The man then vaginally raped Y.O. (R.R.: 46). When he was finished, the man
vaginally raped E.R. (R.R.: 46). The man repeatedly vaginally and orally raped the
two young girls. (R.R.: 46-47). He also ordered the two cousins to perform oral sex
on each other while he watched. (R.R.: 48).
Finally, at about 7:00 a.m., the man got dressed and forced the nude girls out
onto the patio, where he fled through the back gate. (R.R.: 19, 21-22, 48-49, 67, 7374). The girls then wrapped themselves in towels and ran upstairs to get E.R.’s
father. (R.R.: 49). The girls were taken the police station and then to Parkland
Hospital, where they underwent rape examinations. (R.R.: 49-50, 95-96). The
examining physician testified at trial that both girls had vaginal bruising and that
sperm were present in Y.O.’s vagina. (R.R.: 97-99).
Crime-scene investigators discovered that the perpetrator had gained access to
the apartment by removing a pane of glass from one of the windows near the back
door. (R.R.: 80). Investigators were^able to lift a partial palm print from the window.
(R.R.: 82-83). At trial, a fingerprint expert testified that the palm print belonged to
Barnes. (R.R.: 87-93).
*

Y.O. testified at trial and identified Barnes as the man who had raped both her

and E.R. (R.R.: 42-43, 5l-52)i E.R. was apparently too traumatized by the ordeal to
testify to anything other than the most basic facts of the offense. (R.R.: 32-33, 75).
She was never asked at trial if she could identify Barnes as her attacker. (R.R.: 325

14

'33). Moreover, the record indicates that Barnes’s photograph ,was? not in any lineupshown to the girls before trial. (R.R.: 54-56).
Barnes’s wife testified that Barnes was at home in bed with her throughout the
early-morning hours of July 4, 1980. (R.R.: 105,114-15). Barnes himself testified that
he was asleep at home from approximately midnight to 6 a.m., when he got up to
drive his wife to work. (R.R.: 122-24). Barnes testified that he had never seen either
of the victims before and had never been to the apartment where the offenses
occurred. (R.R.: 125). He could not explain how his palm print ended up on the
window. (R.R.: 127, 143). During cross-examination by the State, Barnes admitted
that he had been previously convicted of rape in 1975, while serving in the United
States Army. (R.R.: 141-42).
IV. Previous DNA Testing
In its response to Barnes’s 2007 motion for post-conviction DNA testing, the
State informed this Court that the only items of evidence still in existence in relation
to these cases were vaginal smears collected during the victims’ rape examinations
and retained by the Southwestern Institute of Forensic Sciences (SWIFS). In its order
granting Barnes’s motion, this Court directed the Texas Department of Public Safety
(DPS) to conduct DNA testing on the vaginal smears and on buccal-swab standards
that were to be collected from Barnes and from the victims. The State was ultimately
unsuccessful in its attempts to locate the victims and obtain their buccal swabs for
comparison.

6

15

According to the May 13, 2009 DNA report, DPS received and analyzed two
buccal swabs from Barnes (Items 1 and 2), three vaginal-smear slides from Y.O.
(Items 3-1, 3-2, and 3-3), and one vaginal-smear slide from E.R. (Item 4). (Exhibit B).
The DNA test results were as follows:
• The partial DNA profile from the sperm fraction of the Item 3-1
vaginal-smear slide was consistent with a mixture fro rfu Barnes and
some unknown individual. Barnes could not be excluded as a
contributor to the stain at 11 specified loci. At these loci, the probability
of selecting an unrelated person at random who could be a contributor
to the sperm fraction of the Item 3-1 vaginal-smear slide was
approximately 1 in 6.789 million for Blacks.
• The partial DNA profile from the epithelial-cell fraction of the Item 3-1
vaginal-smear slide was consistent with some unknown female.
• The partial DNA profile from the sperm fraction of the Item 3-2
vaginal-smear slide was consistent with a mixture from Barnes and
some unknown individual. Barnes could not be excluded as a
contributor to the stain at 13 specified loci. At these loci, the probability
of selecting an unrelated person at random who could be a contributor
to the sperm fraction of the Item 3-2 vaginal-smear slide was
approximately 1 in 46.15 million for Blacks.
• The partial DNA profile from the epithelial-cell fraction of the Item 3-2
vaginal-smear slide was consistent with the same unknown female.
• The partial DNA profile from the sperm fraction of the Item 3-3
vaginal-smear slide was consistent with a mixture from Barnes and
some unknown individual. Barnes could not be excluded as a
contributor to the stain at 4 specified loci. At these loci, the probability
of selecting an unrelated person at random who could be a contributor
to the sperm fraction of the Item 3-3 vaginal-smear slide was
approximately 1 in 79 for Blacks.
• The partial DNA profile from the epithelial-cell fraction of the Item 3-3
vaginal-smear slide was consistent with the same unknown female.

7

16

• The partial DNA profiles from the sperm and epithelial-cell fractions of
the Item 4 vaginal-smear slide were consistent with some other female.
Barnes was excluded as a contributor to the sperm . and epithelial-cell
fractions of the Item-4 vaginal-smear slide.
(Exhibit B). The report stated that all four vaginal-smear slides were depleted during
the analysis, but that the DNA extracts from the slides, together with the remaining
samples of Barnes’s buccal swabs and DNA extracts therefrom, would be kept frozen
to preserve their biological constituents. (Exhibit B).
V. Barnes’s Complaints Concerning Previous DNA Testing
In his current, pro se motion, Bames contends that the evidence previously
subjected to DNA testing in these cases was not the evidence collected from Y.O.
and E.R. He appears to suggest that the evidence tested may have instead come from
J.K., who was the victim of an extraneous rape with which Bames was charged but
never convicted. He also maintains that the lab numbers assigned to these cases by
SWIFS “are not the evidence numbers for crimes of July 4, 1980.”
To the extent the State has been able to understand Barnes’s reasoning, his
conclusion that the wrong evidence has been tested in these cases is based on two
false premises: (1) that the rape of J.K. occurred prior to the rapes of Y.O. and E.R.;
and (2) that the examiner’s notes from the testing conducted in 2009 show that the
vaginal-smear slide that was supposed to have been from E.R. was actually labeled
with J.K.’s last name. In fact, according to the police reports associated with the
case, the rape of J.K. occurred on October 12, 1980, over three months after the rapes
of Y.O. and E.R. (Exhibit C). Furthermore, the State has reviewed the unredacted
8

17

laboratory notes from the 2009 testing and has determined that the Item 4 vaginalsmear slide did not, in fact, have J.K.’s name on it. Instead, E.R.’s last name was
merely spelled with a “K” instead of an “R.” This may have been the result of either
an error by the individual who labeled the slide or the examiner’s mistaking a
handwritten “R” for a “K.” In any event, the State has found no merit to Barnes’s
allegation that the wrong evidence was previously tested in these cases.
VI. Location and Condition of Evidence
The State has confirmed that DPS still possesses the DNA extracts from the
four vaginal-smear slides, as well as the remainder of Barnes’s buccal swabs and
DNA extracts therefrom. (Exhibit D). This evidence has been stored in a frozen
condition at the DPS Garland Crime Laboratory since the time of the prior analysis
in 2009. In an abundance of caution, the State has also confirmed that neither
SWIFS nor the Dallas Police Department (DPD) currently possesses any evidence
related to these cases. (Exhibits E, F, G).
VIL DNA Statutes
Chapter 64 of the Texas Code of Criminal Procedure allows a convicted
person to “submit to the convicting court a motion for forensic DNA testing of
evidence containing biological material.” Tex. Code Crim. Proc. Ann. art. 64.01(a-l)
(West Supp. 2014). “Biological material” is defined as “blood, semen, hair, saliva,
skin tissue or cells, fingernail scrapings, bone, bodily fluids, or other identifiable
biological evidence that may be suitable for forensic DNA testing” and “includes the
9

18

contents of a sexual assault evidence collection kit.” Id. art. 64.01(a). The motion
may request DNA testing only of evidence that was secured in relation to the offense
comprising the underlying conviction and was in the State’s possession during trial,
but either was not previously tested or, although previously tested, can be tested with
newer testing techniques that provide a reasonable likelihood of more accurate and
probative results. Id. art. 64.01(b).
A convicting court may order DNA testing under Chapter 64 only if the court
finds that (1) the evidence still exists and is in a condition making DNA testing
possible; (2) the evidence has been subjected to a chain of custody sufficient to
establish that it has not been substituted, tampered with, replaced, or altered in any
material respect; and (3) identity was or is an issue in the case. Tex. Code Crim.
Proc. Ann. art. 64.03(a)(1) (West Supp. 2014). Additionally, the movant must
establish by a preponderance of the evidence that (1) he would not have been
convicted if exculpatory results had been obtained through DNA testing; and (2) the
request for DNA testing is not made to unreasonably delay the execution of sentence
or administration of justice. Id. art. 64.03(a)(2).
This Court need not hold a hearing before ruling on Barnes’s motion. Chapter
64 does not give the movant a right to a hearing on the issue of whether testing
should be granted. Rivera v. State, 89 S.W.3d 55, 58-59 (Tex. Crim. App. 2002); cf.
Tex. Code Crim. Proc. Ann. art. 64.04 (West Supp. 2014) (requiring the court to
hold a hearing prior to making a finding on the favorability of DNA test results).

10

19

VUE. Application
Existence ofEvidence
Although the four vaginal-smear slides themselves were depleted during the
previous DNA testing, DPS still has the DNA extracts from the slides and from
Barnes’s buccal swabs. (Exhibit D). The State has confirmed with DPS that Y-STR
testing can be performed on these previously obtained DNA extracts.
Condition ofEvidence
The DNA extracts from the slides and from the buccal swabs have been stored
in a frozen state since the previous testing was completed in 2009. (Exhibit D). Thus,
they are presumed to be in a testable condition. The exact condition of the extracts
cannot, however, be ascertained until testing is attempted.
Previous DNA Testing
Although the vaginal-smear slides were previously subjected to DNA testing, a
newer testing technique — Y-STR analysis — is available and reasonably likely to
yield results that are more accurate and probative than the results of the previous test,
which utilized conventional STR analysis.
Chain of Custody
The chain of custody appears to be intact for the evidence located at DPS.
Pending this Court’s ruling on Barnes’s motion, the State requests that DPS be

11

20

permitted to retain physical custody of all the evidence in its possession related to
these cases.
Identity at Issue
Identity was and is an issue in these cases. See Tex. Code Crim. Proc. Ann.
art. 64.03(a)(1)(B). The victims did not know their attacker, and only one of the
victims identified Barnes at trial. Barnes presented an alibi defense: both he and his
wife testified that he was asleep at home during the time when the assaults occurred.
Significance ofExculpatory Results
Barnes has met his burden of establishing by a preponderance of the evidence
that he would not have been convicted if exculpatory results had been obtained
through DNA testing. See Tex. Code Crim. Proc. Ann. art. 64.03(a)(2)(A). The DNA
test results will be exculpatory for purposes of Chapter 64 if Y-STR testing of the
DNA extracts from the vaginal-smear slides from both victims yields the same male
DNA profile, and Barnes is excluded as the contributor of this profile.
Administration ofJustice
Barnes has met his burden of establishing by a preponderance of the evidence
that his request for DNA testing is not made to unreasonably delay the execution of
sentence or the administration of justice. See Tex. Code Crim. Proc. Ann. art.
64.03(a)(2)(B). Barnes is currently serving his sentences in these cases.

12

21

j

IX. Entitlement to Counsel
A convicted person is entitled to counsel during a proceeding under Chapter
64. Tex. Code Crim. Proc. Ann. art. 64.01(c). The convicting court shall appoint
counsel for the convicted person if the person informs the court that he wishes to
submit a motion for post-conviction DNA testing under Chapter 64, the court finds
that reasonable grounds exist for a motion to be filed, and the court determines that
the person is indigent. Id.
Barnes is currently incarcerated in the Texas Department of Criminal Justice.
While his most recent, pro se motion for post-conviction DNA testing does not
specifically request the appointment of counsel, this Court did appoint counsel in
connection with Barnes’s 2007 motion for post-conviction DNA testing, and Barnes
has, since those prior proceedings concluded, filed at least one request in these cases
for the appointment of counsel under article 64.01. Moreover, if testing is granted,
the State .believes that an attorney is necessary to assist Barnes in the interpretation of
the DNA test results and to represent Barnes at the hearing that will be required once
DNA testing has been completed. See Tex. Code Crim. Proc. Ann. art. 64.04.
X. Conclusion
Under a fair reading of Chapter 64, Barnes has met the statutory requirements
for entitlement to additional post-conviction DNA testing. Thus, the State does not
oppose Y-STR testing of the DNA extracts from the vaginal-smear slides and from
Barnes’s buccal swabs. The State’s lack of opposition to further testing in these cases

13

22

should not, however, be construed as a waiver of any arguments the State may later
raise regarding the integrity of the evidence to be tested or the interpretation of the
test results under Chapter 64 or a subsequent writ.
XI. Prayer
The State requests that this Court grant Barnes’s motion for post-conviction
DNA testing and direct DPS to perform Y-STR DNA testing on the previously
obtained DNA extracts from the vaginal-smear slides (Items 3-1, 3-2, 3-3, and 4) and
on the previously obtained DNA extracts from Barnes’s buccal swabs (Items 1 and
2). If testing is granted in these cases, the State further requests that this Court
appoint counsel to represent Barnes in future Chapter 64 proceedings.
Respectfully submitted,
f'fi h>eJjU*Z.—

Jofianna H. Kubalak
Assistant District Attorney
State Bar No. 24014297
133 N. Riverfront Blvd., LB 19
Dallas, Texas 75207-4399
(214)653-3639
(214) 653-3643 fax
anna.kubalak@dallascounty.org

Susan Hawk
Criminal District Attorney
Dallas County, Texas

14

23

CERTIFICATE OF SERVICE
I hereby certify that a true copy of the foregoing State’s response has been
served on Gary Wayne Barnes, TDCJ-ID # 318814, Ramsey Unit, 1100 FM 655,
Rosharon, Texas 77583, by depositing same in the United States mail, postage
prepaid, on August 13, 2015.

1

----

J®hanna H. Kubalak

15

24

